1a
Appendix A
United States Court of Appeals
For the Eighth Circuit
No. 19-1263
United States of America
Plaintiff - Appellee
v.
Scott Phillip Flynn
Defendant – Appellant
Appeal from United States District Court
for the District of Minnesota
Submitted: June 17, 2020
Filed: August 13, 2020
Before GRUENDER, WOLLMAN, and KOBES,
Circuit Judges.
KOBES, Circuit Judge.
Scott Phillip Flynn pleaded guilty to conspiracy
to defraud the United States and filing a false tax
return. See 18 U.S.C. § 371; 26 U.S.C. § 7206(1). He
tried to withdraw his plea before sentencing, but the

2a
district court1 denied his motion and sentenced him to
87 months in prison—60 months for the conspiracy
charge and 27 months for the false return—and
ordered him to pay roughly $5.4 million in restitution.
Flynn appeals, arguing that he should have been
allowed to withdraw his guilty plea, his conspiracy
conviction is void for vagueness, the restitution order
was procedurally improper and clearly erroneous, and
the district court wrongly applied an organizer or
leader enhancement when it calculated his sentence.
We find no error and affirm.
I.
Flynn’s convictions arise out of two “reverse
merger” transactions that he assisted in 2006 and
2008.2 As payment, he received shares of stock in the
resulting public companies. He transferred millions of
these shares to two companies he controlled and, with
the help of a co-conspirator, transferred millions more
into the hands of Australian nominees. These

The Honorable Ann D. Montgomery, United States District
Judge for the District of Minnesota.
1

The Securities and Exchange Commission explains that a
reverse merger offers an alternative to an initial public offering.
In this transaction, an existing public “shell” company acquires
the shares to a private corporation and in exchange the
shareholders of the private corporation become the controlling
shareholders of the public shell company. The result is the public
entity takes over the private one, but the public company’s
business operations are “primarily, if not solely, those of the
former private company.” Reverse Mergers, Investor.gov,
https://www.investor.gov/news-alerts/investors-ulletins/reversemergers (last visited July 2, 2020).
2

3a
Australian nominees placed their shares in U.S.
brokerage accounts that Flynn could access.
From 2006 to 2014, Flynn controlled these
accounts and used them to sell around $15 million
worth of stock and transfer the proceeds to Australian
bank accounts that he also controlled. In 2007, he
purchased a house with $2.7 million of that money and
yet only reported $26,136 of income on his tax return.
Over the course of the conspiracy, all $15 million in
sales was income to Flynn and he reported none of it.
Flynn stipulated to all these facts as part of his
guilty plea. At his change of plea hearing, Flynn said
he knew that pleading guilty meant his case would
never go to trial, he had discussed his case with his
lawyers and was satisfied with their representation,
and he understood the rights he was waiving by
pleading guilty. The court then read portions of the
indictment and Flynn stated that he had read and
understood the entire document with the help of his
attorneys. Finally, the court reviewed the agreedupon sentencing calculations described in the plea,
including the application of a four-point enhancement
because Flynn was an organizer or leader of an
otherwise extensive scheme and a two-point reduction
for acceptance of responsibility. Only then did the
district court accept Flynn’s guilty plea.
Six months later, just over a week before he was
scheduled to be sentenced, Flynn (through new
counsel) moved to continue his sentencing and
withdraw his guilty plea, disavowed the stipulations
contained in the plea, and asserted his innocence. The
district court denied that motion. At sentencing, the
district court enforced the agreement as written and

4a
Flynn received the two-point reduction for acceptance
of responsibility even though the Government did not
request it. It sentenced him to 87 months in prison
and ordered him to pay $5,392,442.87 in restitution.
Flynn timely appealed.
II.
Flynn first argues that he should have been
allowed to withdraw his guilty plea because it was not
knowing and voluntary, lacked a factual basis, and the
Government breached the agreement. A defendant
may withdraw a guilty plea after it has been accepted
by the district court if “the defendant can show a fair
and just reason for requesting the withdrawal.” Fed.
R. Crim. P. 11(d)(2)(B). “There is no right to withdraw;
the plea of guilty is a solemn act not to be disregarded
because of belated misgivings about its wisdom.”
United States v. Andolini, 705 F.3d 335, 337 (8th Cir.
2013) (citation omitted) (emphasis in original). If a
defendant establishes a fair and just reason for
withdrawal, the district court must then consider
“whether the defendant asserts his innocence of the
charge, the length of time between the guilty plea and
the motion to withdraw it, and whether the
government will be prejudiced if the court grants the
motion.” United States v. Heid, 651 F.3d 850, 853–54
(8th Cir. 2011) (citation omitted). We review the
denial of a motion to withdraw a plea for abuse of
discretion. Andolini, 705 F.3d at 337.
A.
Flynn’s first “fair and just” reason for withdrawal
is that he was not informed of the nature of the
charges against him, so his plea was not knowing and

5a
voluntary. See Fed. R. Crim. P. 11(b)(1)(G). Whether a
plea was knowing and voluntary presents a mixed
question of law and fact that we review de novo.
United States v. Gray, 152 F.3d 816, 819 (8th Cir.
1998). We assess whether Flynn understood the
nature of the charges by examining the totality of the
circumstances. United States v. Marks, 38 F.3d 1009,
1011 (8th Cir. 1994). We consider “whether the
indictment gave him notice of the charge, whether he
discussed the charge with his attorney or the judge,
and…any other facts which are in the record.” Id.
The record shows Flynn understood how the law
related to the facts of his case. See United States v.
Johnson, 715 F.3d 1094, 1103 (8th Cir. 2013). The
district court read aloud the relevant counts of his
indictment, ensured he understood and had discussed
those counts with his attorneys, he was satisfied with
his attorneys, and he had discussed the rights he was
waiving “at some length” with them. Nevertheless,
Flynn complains that the indictment did not list the
elements of his conspiracy charge and suggests that
circuit courts inconsistently describe those elements,
to the point where it was impossible for Flynn (or
seemingly anyone else) to understand the charges.
Flynn pleaded guilty under the portion of 18
U.S.C. § 371 that prohibits conspiring to defraud the
United States. When such a conspiracy is specifically
focused on defrauding the IRS in its efforts to assess
and collect taxes, it is commonly referred to as a Klein
conspiracy. United States v. Fletcher, 322 F.3d 508,
513 (8th Cir. 2003); United States v. Klein, 247 F.2d
908 (2d Cir. 1957), cert. denied, 355 U.S. 924 (1958).
Flynn alleges Klein conspiracies are uncons-

6a
titutionally vague because federal circuit courts
disagree on the elements necessary to secure a
conviction.
Although the circuits subdivide the crime into
different elements, all describe the same offense. We
describe the crime with two elements. Fletcher, 322
F.3d at 513 (“To convict a defendant of a Klein
conspiracy, the government must show the existence
of an agreement to defraud the IRS and an overt act
by one of the conspirators in furtherance of the
agreement’s objectives.”). The Third Circuit has used
three. United States v. Shoup, 608 F.2d 950, 956 (3d
Cir. 1979) (“To establish a [Klein] conspiracy . . . . the
prosecution must prove three elements: (1) the
existence of an agreement, (2) an overt act by one of
the conspirators in furtherance of the objectives, and
(3) an intent on the part of the conspirators to agree,
as well as to defraud the United States.”). And the
Second, four. United States v. Coplan, 703 F.3d 46, 61
(2d Cir. 2012, cert. denied, 571 U.S. 819 (2013) (“[T]o
prove a Klein conspiracy, the Government must show
(1) that the defendant entered into an agreement (2)
to obstruct a lawful function of the Government (3) by
deceitful or dishonest means and (4) at least one overt
act in furtherance of the conspiracy.”) (quotations and
alterations omitted). But, in substance, each of these
cases describes the same crime. And in any event, the
district court properly applied the well-settled law in
this circuit and the elements of Flynn’s offense were
laid out in his indictment and read aloud to him at his
change of plea hearing.
Flynn also argues that both counts of conviction
depended on a finding that he exercised dominion and

7a
control over the $15 million and this requirement was
not explained to him. But the indictment alleged that
Flynn exercised dominion and control over the funds,
he admitted he did in his plea agreement (and
admitted to facts supporting that admission as well),
and answered yes when the district court asked
whether he and his co-conspirator Steven Miotti had
control over the Australian nominees. The importance
of that admission was clear. The district court did not
abuse its discretion when it concluded, based on the
totality of the circumstances, that Flynn’s guilty plea
was knowing and voluntary.
B.
Flynn also argues that his guilty plea should
have been withdrawn because it lacks a factual basis
supporting either conviction.
“To convict a defendant of a Klein conspiracy, the
government must show the existence of an agreement
to defraud the IRS and an overt act by one of the
conspirators in furtherance of the agreement’s
objectives.” Fletcher, 322 F.3d at 513. Flynn admitted
that he had agreed with Miotti and, through Miotti,
several Australian nominees, to avoid taxation by
placing his income in the hands of the Australian
nominees and maintaining control of accounts in their
names. He agreed he had taken all the steps necessary
to realize his scheme and that he intended to impair
the IRS’s ability to calculate his tax liability. Flynn
asserts without citation that the amount of money at
issue in a Klein conspiracy is an essential element of
such a charge. It is not, so it does not matter that
Flynn did not know or stipulate to the exact amount
of money he hid from the government. And although

8a
Flynn attempts to muddy the waters by claiming he
never controlled the Australian nominees, exercised
dominion or control over the funds in their accounts,
or conspired with Miotti, any confusion on these issues
arose only after Flynn tried to get out of his plea
agreement. His stipulations and colloquy are clear
and adequate on each of these points.
In the alternative, Flynn argues after the
Supreme Court’s decision in Marinello v. United
States, 138 S. Ct. 1101 (2018), Klein conspiracies
include an additional element not mentioned in his
plea. In Marinello, the Supreme Court interpreted 26
U.S.C. § 7212(a)’s Omnibus Clause, which “forbids
‘corruptly or by force or threats of force (including any
threatening
communication)
obstruct[ing]
or
imped[ing], or endeavor[ing] to obstruct or impede,
the due administration of [the Internal Revenue
Code].” Marinello, 138 S. Ct. at 1105 (quoting 26
U.S.C. § 7212(a)) (alterations in original). In
construing this clause, the Supreme Court held that
“the due administration [of the Internal Revenue
Code]” did not include things like the ordinary review
of income tax returns but rather implied that there
must be a “nexus” between a defendant’s obstructive
conduct and a “targeted administrative action” like an
audit. 138 S. Ct. at 1109–10.
Flynn suggests that the same nexus requirement
ought to apply in Klein conspiracies, despite the fact
that the broad language in § 371 makes no reference
to “the due administration [of the Internal Revenue
Code].” See Haas v. Henkel, 216 U.S. 462, 479 (1910)
(“The statute is broad enough in its terms to include
any conspiracy for the purpose of impairing,

9a
obstructing, or defeating the lawful function of any
department of government.”); see also Dennis v.
United States, 384 U.S. 855, 861 (1966). As the Second
Circuit has explained, the broad scope of Klein
conspiracies is sanctioned in “long-lived Supreme
Court decisions” and arguments aimed at narrowing
it “are properly directed to a higher authority.”
Coplan, 703 F.3d at 62.
The factual basis for Flynn’s false tax return
conviction is similarly robust. A defendant files a false
tax return when he “[w]illfully makes and subscribes
any return . . . which contains or is verified by a
written declaration that it is made under the penalties
of perjury, and which he does not believe to be true
and correct as to every material matter.” 26 U.S.C. §
7206(1). Flynn suggests that there is nothing in the
record that establishes the $2.7 million used to buy his
home was income to him and therefore should have
been reported on his taxes. Again, Flynn’s admissions
in his guilty plea establish exactly what he suggests
was not proven. Flynn stipulated that the $2.7 million
was income to him and that he only reported a little
over $26,000 of income that year.
C.
Finally, Flynn argues that he should have been
able to withdraw his guilty plea because the
Government breached the agreement at his
sentencing by not recommending that he receive a
two-level reduction for acceptance of responsibility
(which the district court applied anyway).
There was no breach. The Government agreed
to recommend an acceptance-of-responsibility reduc-

10a
tion if Flynn “commit[ted] no further acts inconsistent
with acceptance of responsibility.” D. Ct. Dkt. 90 at 5.
That did not happen. After signing the plea
agreement, Flynn reversed course and disputed
almost every fact he previously admitted. He argued
to the district court, and reiterates to us on appeal,
positions that plainly conflict with the terms of his
plea. These acts are not consistent with Flynn’s
acceptance of responsibility. See United States v.
Rendon, 752 F.3d 1130, 1133–34 (8th Cir. 2014).
Because Flynn has failed to show fair and just
reasons why he should have been allowed to withdraw
his plea, we do not need to address his arguments
regarding his innocence and the lack of prejudice
occasioned by his attempted withdrawal. See Heid,
651 F.3d at 853–54. The district court did not abuse
its discretion by denying Flynn’s motion to withdraw
his guilty plea.
III.
Flynn next argues that his Klein conspiracy
conviction under § 371 is invalid because the offense
is void for vagueness. We review whether an offense is
unconstitutionally vague de novo. United States v.
Cook, 782 F.3d 983, 987 (8th Cir. 2015).3 A statute is
void if it does not afford fair notice of what is
prohibited to a person of ordinary intelligence or if it
is so standardless it allows for or even encourages
The parties dispute whether this claim was properly presented
to the district court and therefore whether we should review de
novo or only for plain error. See United States v. Paul, 885 F.3d
1099, 1105 (8th Cir. 2018). We need not decide the issue because
Flynn’s argument fails under any standard.
3

11a
“seriously discriminatory enforcement.” Id. (quoting
Holder v. Humanitarian Law Project, 561 U.S. 1, 18
(2010)).
As we have explained, § 371’s “defraud clause”
prohibits conspiracies “to defraud the United States,”
which the Supreme Court has defined as “impairing,
obstructing, or defeating the lawful function any
department of the Government.” Dennis, 384 U.S. at
861; United States v. Derezinski, 945 F.2d 1006, 1011
(8th Cir. 1991) (same). Flynn argues that alleged
disagreements between the circuit courts over the
elements and a lack of uniformity as to the required
mens rea has caused Klein conspiracies to become
unconstitutionally vague.4
We have already discussed the elements issue
and, regardless of any disagreement over the
necessary mental state, Flynn stipulated to
specifically intending to defraud the Government. D.
Ct. Dkt. 90 at 3 (“The Defendant agrees that he took
the steps described above in order to impair and
impede the lawful functioning of the IRS in
ascertaining his income tax liability....”). In reviewing
vagueness challenges, we ask whether the offense is
vague as applied, because a defendant “who engages
in some conduct that is clearly proscribed cannot
complain of the vagueness of the law as applied to the
conduct of others.” Cook, 782 F.3d at 987 (quoting
Holder, 561 U.S. at 18–19). We have no trouble
concluding that a person of ordinary intelligence
Flynn also argues that, if we find Klein conspiracies are not
vague, we must do so by applying Marinello’s nexus requirement.
For the reasons already stated, Marinello did not alter Klein
conspiracies.
4

12a
would understand that Flynn’s conduct runs afoul of
the statute.
IV.
Flynn next appeals the process the district court
used to determine how much restitution he owed and
the amount ultimately imposed.
A.
Flynn argues the district court erred by denying
his motions to continue his sentencing or bifurcate the
sentencing and restitution proceedings to give his new
counsel additional time to prepare to contest
restitution. We review for an abuse of discretion,
giving the district court wide latitude, and will reverse
only if the moving party can show prejudice from the
denial. United States v. Jones, 643 F.3d 275, 277 (8th
Cir. 2011). Flynn changed counsel late, so late in fact,
the district court noted that the substitution violated
the local rules. Nevertheless, it allowed the
substitution and granted a continuance on the
condition that no further delays result from the
change in counsel. The district court did not abuse its
discretion when it refused to grant yet another
continuance to allow Flynn’s counsel more time to
prepare for the restitution hearing.
Next, Flynn argues that he was entitled to a jury
trial on restitution. We have previously held that
restitution may be found by a judge and that it does
not implicate a defendant’s Sixth Amendment rights.
United States v. Carruth, 418 F.3d 900, 904 (8th Cir.
2005). Flynn argues that this precedent was undercut
by the Supreme Court in Southern Union v. United

13a
States, 567 U.S. 343 (2012), but as it happens, we have
rejected that argument too. United States v.
Thunderhawk, 799 F.3d 1203, 1209 (8th Cir. 2015)
(“[N]othing in the Southern Union opinion lead[s] us
to conclude that our controlling precedent in Carruth
….was implicitly overruled.”). Undeterred, Flynn
claims in reply that this precedent was undermined
by the plurality opinion in United States v. Haymond,
139 S. Ct. 2369 (2019). Here Flynn finally lands on
authority so recent we have not already considered his
argument, but he fails to offer any convincing reason
Haymond, which dealt with “an unusual provision,”
id. at 2383 (Gorsuch, J.) (plurality opinion), governing
revocation proceedings for “a discrete set of federal
criminal offenses,” id. at 2386 (Breyer, J, concurring),
silently
overturns
our
precedent
governing
restitution. Thunderhawk remains the law in this
circuit and we must follow it until the en banc court or
the Supreme Court tells us otherwise.5
B.
Flynn also argues the district court erred in
finding that he owed nearly $5.4 million in restitution.
The Government has the burden of proving the
amount of restitution by a preponderance of the
evidence and we review the district court’s

We pause to note that because Flynn admitted to owing between
$3.5 million and $9.5 million in restitution, D. Ct. Dkt. 90 at 5,
any hypothetical Sixth Amendment right to a jury trial would not
be violated in this case because the district court’s restitution
order did not exceed the “Apprendi maximum” of $9.5 million.
See Portalatin v. Graham, 624 F.3d 69, 82, 88 (2d Cir. 2010) (en
banc) (citing Blakely v. Washington, 542 U.S. 296, 303–04
(2004)).
5

14a
determination for clear error. United States v.
Ellefsen, 655 F.3d 769, 782 (8th Cir. 2011).
Flynn’s arguments on this score relate to the
admission by the Government and its witness that the
$15 million figure that Flynn stipulated was
unreported income he earned was an approximation.
Because restitution is only available for actual and not
intended loss, he argues his restitution award,
calculated based on the $15 million figure, must be
vacated. It is true that courts cannot award
restitution for intended loss, see United Statese v.
Chalupnik, 514 F.3d 748, 754 (8th Cir. 2008), but that
is immaterial where the defendant stipulated that he
actually hid $15 million of income from the IRS.
Flynn also claims that United States v. Bagley,
907 F.3d 1096, 1099 (8th Cir. 2018), prohibits using
estimates to assess restitution. This overreads Bagley,
which dealt with the valuation of a four-year-old
Terrier named Mister, and merely held that the
Government must do more to support its valuation
than offer “a speculative estimate of the costs
associated with raising Mister.” Id. In this highly
complex tax evasion case, by contrast, where difficulty
in assessing the exact amount of actual loss is a
testament to the scope of Flynn’s criminal activity,
both parties agreed to the $15 million figure and the
Government offered evidence at the restitution
hearing that showed the actual amount was likely
even higher. It was not clear error for the district court
to credit the loss figure that Flynn and the
Government agreed upon. Nor was it clear error (as
Flynn also claims) for the district court to credit the
testimony of the Government’s witness and calculate

15a
the tax loss from the sale of these shares as an
ordinary income event rather than a capital gains
event.
Finally, Flynn argues that the district court
erred because it awarded restitution on both counts of
conviction when restitution is only available on his
false tax return offense if it is a condition of his
supervised release. See United States v. Perry, 714
F.3d 570, 577 (8th Cir. 2013). But the district court did
order restitution as a condition of Flynn’s supervised
release and there was no error. D. Ct. Dkt. 139 at 5.
V.
Last of all, Flynn challenges the district court’s
application of a four-point enhancement to his
sentence for organizing or leading a conspiracy that
was “otherwise extensive.” U.S.S.G. § 3B1.1. Again,
this argument runs headfirst into Flynn’s plea
agreement where he stipulated that the network of
Australian nominees, Flynn, and Miotti qualified as
“otherwise extensive” and the enhancement should
apply. Whether we view this as a sentencing issue
raised for the first time on appeal, an invited error, or
an issue Flynn expressly waived, he is not entitled to
relief.
The judgment of the district court is affirmed.

16a
Appendix B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,
Plaintiff,
v.

Scott Phillip Flynn,

MEMORANDUM OPINION
AND ORDER
Criminal No. 16-347 ADM/KMM

Defendant.
David J. MacLaughlin and Benjamin F. Langner,
Assistant United States Attorneys, United States
Attorney’s Office, Minneapolis, MN, on behalf of
Plaintiff.
Patrick J. Egan, Esq., Fox Rothschild LLP,
Philadelphia, PA, on behalf of Defendant.
I. INTRODUCTION
On December 20, 2018, the undersigned United
States District Judge heard oral argument on
Defendant Scott Phillip Flynn’s (“Flynn”) Motion to
Continue Sentencing [Docket No. 113] and Motion to
Withdraw Guilty Plea [Docket No. 115]. For the
reasons set forth below, the Motion to Continue
Sentencing is granted and the Motion to Withdraw
Guilty Plea is denied.

17a
II. BACKGROUND
On December 21, 2016, a grand jury indicted
Flynn with conspiracy to defraud the United States in
violation of 18 U.S.C. § 371, tax evasion in violation of
26 U.S.C.§ 7201, and filing false tax returns in
violation of 26 U.S.C. § 7206(1). See generally
Indictment [Docket No. 1]. Flynn retained attorney
Earl Gray in 2015 and added attorney Paul Engh as
co-counsel in March of 2017. Gray and Engh are two
of the most experienced and well respected federal
criminal defense attorneys in Minnesota.
After several continuances of the trial date, trial
was set for June 11, 2018. On June 4, 2018, just one
week before trial was scheduled to begin, Flynn
reached a Plea Agreement with the Government and
entered a plea of guilty to Count 1 (conspiracy to
defraud the United States) and Count 3 (false tax
return - 2007) of the Second Superseding Indictment
(“SSI”) [Docket No. 83]. See Plea Agreement [Docket
No. 90]; Min. Entry [Docket No. 89]; Plea Tr. [Docket
No. 93]. In return for Flynn’s pleas of guilty, the
Government agreed to dismiss the remaining five
counts in the SSI. Plea Agreement ¶ 2. Because “trial
[was] only one week away, and the government ha[d]
expended considerable resources preparing for the
trial,” the Plea Agreement did not include the third
point typically awarded by the Government for
acceptance of responsibility. Plea Agreement ¶ 6(d).
Early in the change of plea hearing on June 4, the
Court made certain Flynn understood the finality of
the guilty plea:

18a
COURT: There is a degree of finality to
today’s proceedings, because if I accept
your guilty plea at the end of the
questioning, that closes the door to
whether you ever have a trial. So one of my
last questions will be do you want me to
accept the plea agreement, and that’s a
way of saying that’s the end of it then with
regard to trial or no trial. Do you
understand that?
FLYNN: I do.
COURT: There’ll be issues about
sentencing and other things to talk about,
but not whether or not you have a trial. Do
you understand that?
FLYNN: Yes.
Plea Tr. at 4:11–23.
After an extensive inquiry reflected in a 29 page
transcript of Flynn’s understanding of his
constitutional rights, his plea agreement and the
factual basis for his plea, the Court made certain that
Flynn understood he could not change his mind about
pleading guilty and not going to trial:
COURT: All right. Mr. Flynn, I’m up to
that question I predicted, that I was telling
you about, which is kind of the final one,
and that is whether you want me to accept
your plea agreement knowing that that’s
final on the issue of whether or not you will
have a trial.

19a
FLYNN: Yes, Your Honor.
COURT: Okay. Do you want me to accept
it?
FLYNN: Yes.
COURT: The plea agreement is accepted.
Id. at 27:25–28:8.
Then on October 30, 2018, nearly five months
after the plea hearing, Flynn filed a sentencing
memorandum in which he again “agree[d] with, and
reaffirm[ed], the factual basis of [his] plea
agreement.” Def.’s Sentencing Mem. [Docket No. 106]
at 15.
Not until December 11, 2018, more than half a
year after his guilty plea and just nine days before he
was scheduled to be sentenced, did Flynn reverse
course. Through new counsel, Flynn moves to
substitute new counsel for his former counsel,
continue his sentencing, and withdraw his guilty plea.
III. DISCUSSION
A. Withdrawal and Substitution of Counsel
As an initial matter, the withdrawal and
substitution of counsel in this case is in contradiction
of Local Rule 83.7(b), which permits substitution of
counsel only if “the withdrawal and substitution will
not delay the trial or other progress of the case.”
Flynn’s change in counsel has delayed the progress of
this case, and there is no legally sound basis for
justifying the delay. Flynn does not assert that his

20a
former attorneys were ineffective. His new counsel’s
arguments for withdrawing Flynn’s plea are based on
alleged deficiencies in the Plea Agreement and plea
hearing, which took place half a year ago, and on a
Supreme Court case decided in March of 2018, nearly
three months before Flynn entered his plea.
Nevertheless, substitution of counsel will be
permitted based on the Court’s judgment that Flynn
is facing lengthy sentencing guidelines and should be
able to have retained counsel of his choice represent
him. No further delays will be occasioned by this
change in counsel.
B. Withdrawal of Guilty Plea
Under Rule 11(d) of the Federal Rules of
Criminal Procedure, a defendant may withdraw a plea
of guilty “after the court accepts the plea, but before it
imposes sentence if . . . the defendant can show a fair
and just reason for requesting the withdrawal.” Fed.
R. Crim. P. 11(d)(2)(B). “While the standard is liberal,
the defendant has no automatic right to withdraw a
plea.” United States v. Heid, 651 F.3d 850, 853 (8th
Cir. 2011). If a fair and just reason exists, a court must
also consider “whether the defendant asserts his
innocence of the charge, the length of time between
the guilty plea and the motion to withdraw it, and
whether the government will be prejudiced if the court
grants the motion.” Id. at 853–54. “A guilty plea is a
solemn act not to be set aside lightly.” United States
v. Prior, 107 F.3d 654, 657 (8th Cir. 1997).
1. Fair and Just Reasons
Flynn argues that fair and just reasons exist for
withdrawing his plea because: (1) he was never

21a
advised of the specific elements of the offenses; (2) the
factual basis of the plea was inadequate to support the
crimes charged; (3) violations of Rule 11 of the Federal
Rules of Criminal Procedure occurred during the plea
hearing; and (4) the SSI did not properly state a
conspiracy to defraud the United States after the
Supreme Court’s March 21, 2018 decision in Marinello
v. United States, 138 S. Ct. 1101 (2018).
a. Nature of the Charges
Flynn argues that the plea hearing failed to
comply with Federal Rule of Criminal Procedure Rule
11(b)(1)(G), which requires the Court to “inform the
defendant of, and determine that the defendant
understands . . . the nature of each charge to which
the defendant is pleading.” Flynn contends this
requirement was not satisfied because the case is
exceptionally complex, yet the Court did not identify
the elements of the offenses.
Rule 11 does not require that the elements of
each charge be reviewed with the defendant. Rather,
Rule 11(b)(1)(G) is satisfied if the record as a whole
reflects that the defendant possessed “an
understanding of the law in relation to the facts.”
United States v. Johnson, 715 F.3d 1094, 1103 (8th
Cir. 2013).
Here, the record provides ample evidence that
the Court informed Flynn of the nature of the charges
and that Flynn understood the law in relation to the
facts. The Court read the first paragraph of Count 1
verbatim from the SSI before asking Flynn for his
plea:

22a
COURT: It’s alleged in Count 1 that
beginning in or about 2005 and continuing
through at least in or about 2015, in the
State and District of Minnesota and
elsewhere, the defendant, Scott Phillip
Flynn, also known as Phil Flynn, and
others known and unknown to the grand
jury, including, but not limited to, S.M.
and Phillip J. Flynn, did unlawfully and
knowingly conspire, combine, confederate,
and agree with each other to defraud the
United States by deceitful and dishonest
means by impeding, impairing, obstructing, and defeating the lawful
governmental functions of the Internal
Revenue Service . . . in the ascertainment,
computation, assessment, and collection of
revenue, that is, United States income
taxes of defendant Scott Phillip Flynn, and
the other members of the Flynn Group,
including Integritas and Phillip J. Flynn.
To that count, what is your plea?
FLYNN: Guilty.
COURT: Okay. And there’s a number of
means and a lengthy description of that I
take it you’ve gone over with your
attorneys. I’m assuming, Mr. Engh, that
you waive any further reading of the overt
acts or the conspiracy charge?
ENGH: We do, your Honor.
Plea Tr. at 11–12.

23a
The Court then read the entirety of Count 3 from
the SSI as follows:
COURT: And then Count 3 reads as
follows: That on or about October 17th,
2008, in the State and District of
Minnesota, the defendant, Scott Phillip
Flynn, also known as Phil Flynn, did
willfully make and file with the Internal
Revenue Service a false United States
Individual Income Tax Return, Form
1040, separately from his wife, for the
taxable year ended December 31st, 2007,
which he signed and subscribed on or
about October 15th, 2008, and which was
verified by a written declaration that was
made under the penalties of perjury, and
which said Income Tax Return he did not
believe to be true and correct as to every
material matter, in that line 22 reported
total income of $26,136, whereas, as he
then and there well knew and believed, his
total income was substantially more than
$26,136, in violation of Title 26, United
States Code, Section 7206(1). To that
count, what is your plea?
FLYNN: Guilty.
Id. at 12–13.
In addition to reading the substance of the
charges to Flynn, the Court reviewed the Plea
Agreement with him paragraph by paragraph, id. at
11–20; advised him of the maximum penalties
applicable to each charge, id. at 13–14; asked Flynn if

24a
he’d had enough time to speak with his attorneys
about his case (Flynn answered, “Yes”), id. at 5; asked
Flynn if he was satisfied with his attorneys’ service
(Flynn answered, “I am”). Id.
Flynn argues he was not given an opportunity to
testify whether counsel had thoroughly explained the
elements of the charges or his available defenses. The
record shows that at the beginning of the change of
plea hearing, the Court expressly told Flynn that “if
there’s something that’s concerning you, you can also
take a timeout. Just tell me and I’ll give some privacy
to talk to [counsel] to clear up any areas of confusion,
ok?” Id. at 4. After advising him of his constitutional
rights, the Court again invited Flynn to raise any
concerns he may have had:
COURT: You seem to be following just
fine. Is there anything you’d like to ask me
about what your constitutional rights are?
FLYNN: I have no questions at this point.
COURT: I assume you’ve gone over this at
some length with your counsel.
FLYNN: Yes, I have.
Id. at 10.
In addition to these facially sufficient
descriptions of the nature of the charges, the record
includes further indicia that Flynn understood the
nature of the charges to which he pled guilty. Flynn
was represented by two experienced federal criminal
defense attorneys, one who had represented him in

25a
this case for more than two years, and the other who
had been involved for more than 15 months.
Flynn is an intelligent individual capable of
understanding
sophisticated
concepts
and
transactions. He has assisted privately held
corporations in becoming publicly traded through
reverse merger transactions. Plea Agreement ¶ 3.
Although the crimes charged are complex, the
complexity stems largely from the intricate nature of
Flynn’s financial affairs, including his use of nominee
shareholders, overseas attorneys, bank accounts in
Australia and Costa Rica, and multiple limited
liability companies. Further, Flynn has prior
experience with the criminal justice system, having
been convicted previously by a jury of securities fraud
in 1998. See United States v. Flynn, No. 98–134
MJD/JMM (D. Minn. 1998). The record thus
establishes that Flynn understood the nature of the
crimes to which he pled guilty.
b. Factual Basis
Flynn also argues that the factual bases for
Counts 1 and 3 were inadequate to support the plea.
Federal Rule of Criminal Procedure 11(b)(3) requires
that “[b]efore entering judgment on a guilty plea, the
court must determine that there is a factual basis for
the plea.” “A guilty plea is supported by an adequate
factual basis when the record contains sufficient
evidence at the time of the plea upon which a court
may reasonably determine that the defendant likely
committed the offense.” United States v. Sharp, 879
F.3d 327, 335 (8th Cir. 2018), cert. denied, 139 S. Ct.
345 (2018) (quoting United States v. Cheney, 571 F.3d
764, 769 (8th Cir. 2009)).

26a
I. Count 1
Count 1 of the SSI charges Flynn with violating
18 U.S.C. § 371 by conspiring with others to defraud
the IRS in the function of assessing and collecting
taxes, also known as a Klein conspiracy. SSI ¶ 16;
United States v. Fletcher, 322 F.3d 508, 513 (8th Cir.
2003); United States v. Ervasti, 201 F.3d 1029, 1037
(8th Cir. 2000); United States v. Klein, 247 F.2d 908,
916 (2d Cir. 1957), cert. denied, 355 U.S. 924 (1958).
The Eighth Circuit has held that “[t]o convict a
defendant of a Klein conspiracy, the government must
show the existence of an agreement to defraud the IRS
and an overt act by one of the conspirators in
furtherance of the agreement’s objectives.” Fletcher,
322 F.3d at 513.
At the time of the plea, the record included ample
facts supporting a reasonable determination that
Flynn committed the offense charged in Count 1.
Flynn stipulated in the Plea Agreement that: as
compensation for assisting two privately held
companies to become publicly traded, Flynn received
millions of shares of publicly traded stock in those
companies; Flynn titled the stock in the names of
Australian nominees recruited by his co-conspirator,
Steven Miotti; Miotti directed the Australian
nominees to open brokerage accounts in the United
States to receive the shares, but Flynn possessed the
login and password data to control the accounts and
shares of stock; Flynn caused the stock to be sold and
the $15 million in proceeds to be transferred to
accounts at National Australia Bank; Flynn exercised
control and dominion over the National Australia
Bank accounts; the $15 million in the Australian

27a
accounts was unreported income; Flynn took these
steps to “impair and impede the lawful functioning of
the IRS in ascertaining his income tax liability during
the years 2005 through 2015.” Plea Agreement ¶ 3.
During the plea hearing, Flynn reaffirmed the
facts in the Plea Agreement, and also testified under
oath that he and Miotti were working together when
Miotti recruited the nominees, Plea Tr. at 24; Flynn
and Miotti controlled the Australian nominees’
brokerage accounts and National Australia Bank
accounts, id.; and Flynn and Miotti, working together,
caused the Australian nominees to sell shares of stock
that were held in the brokerage accounts and transfer
the proceeds to the National Australia Bank accounts.
Id. The facts in the Plea Agreement and plea colloquy
provide more than a sufficient basis to determine that
Flynn and Miotti agreed to defraud the IRS and that
an overt act was taken in furtherance of the
agreement’s objectives.
Flynn disagrees, arguing that the plea lacks a
factual basis because during the plea hearing he
equivocated in response to the amount of money at
issue in this case. This argument misstates the record.
When asked about the amount, Flynn testified, “I
have no way to calibrate the 15 million and I haven’t
seen anything of that, but I assume that’s correct.” Id.
at 25. When asked whether he disputed the amount,
Flynn testified: “I don’t dispute it.” Id. Moreover,
Flynn stipulated to the $15 million amount in the Plea
Agreement. Plea Agreement ¶ 3.
Flynn also argues that during the plea hearing
he disclaimed involvement with the Australian
nominees. Again, Flynn misstates the record.

28a
Although Flynn testified that all communication with
the nominees was handled through Miotti, Flynn
admitted involvement with the nominees. Specifically,
he admitted that he and Miotti had control over the
nominees’ brokerage accounts and National Australia
Bank accounts; that he and “Miotti, working together
caused these Australian people to sell shares of [stock]
that were held in brokerage accounts here in the
United States”; and that the proceeds from the sale of
the stock were transferred to the National Australia
Bank accounts that Flynn and Miotti controlled. Id. at
24. Thus, Flynn admitted, rather than disclaimed,
involvement with the Australian nominees.
ii. Count 3
Count 3 charges Flynn with filing a false tax
return in violation of 26 U.S.C. § 7206(1), which
prohibits “[w]illfully mak[ing] and subscrib[ing] any
return . . . which contains or is verified by a written
declaration that it is made under the penalties of
perjury, and which he does not believe to be true and
correct as to every material matter.”
In the Plea Agreement and at the plea hearing,
Flynn admitted that: in 2007, he received
approximately $2.7 million of stock proceeds from the
Australian nominees to buy a house in Orono,
Minnesota; the $2.7 million was income to Flynn;
Flynn reported $26,136 of total income on his 2007
federal income tax return; Flynn signed the return
under penalty of perjury and filed it on October 17,
2008; when he filed the return, Flynn knew it
materially under reported his income for 2007; and
Flynn filed the return “willfully, knowing that he was
violating the law when he filed it.” Plea Agreement ¶

29a
3; Plea Tr. at 25–26. These facts are more than
sufficient to reasonably determine that Flynn violated
26 U.S.C. § 7206(1).
Resisting this conclusion, Flynn argues that the
record does not support the Government’s claim that
the $2.7 million transferred in 2007 was income to
him. This argument is squarely contradicted by the
Plea Agreement in which Flynn admits that he
“received approximately $2.7 million of the proceeds
from the Australian nominees to buy a house in
Orono, Minnesota, which was income to the
Defendant.” Plea Agreement ¶ 3 (emphasis added).
Flynn also cites to an October 24, 2018 email
exchange between Flynn’s counsel and the
Government to argue that he challenged the factual
basis of the plea after the plea hearing. Egan Decl.
[Docket No. 117] Ex. D. However, on October 30, 2018,
less than a week after the email exchange, Flynn filed
a sentencing memorandum in which he “agree[d]
with, and reaffirm[ed], the factual basis of [his] plea
agreement.” Def.’s Sentencing Mem. at 15.
c. Purported Rule 11 Violations
Flynn also argues that Rule 11(b)(1)(D) of the
Federal Rules of Criminal Procedure was violated
because the Court did not inform Flynn of his right to
be represented by counsel at every stage of the
proceeding. Rule 11(b)(1) requires the court to “inform
the defendant of, and determine that the defendant
understands, . . . the right to be represented by
counsel–and if necessary have the court appoint
counsel–at trial and at every other stage of the
proceeding.” Fed. R. Crim. P. 11(b)(1)(D). The Court

30a
specifically informed Flynn that he would “have the
right to have the benefit of counsel at trial.” Plea Tr.
at 9.
The circumstances surrounding Flynn’s plea
establish that his substantial rights were not affected
by any claimed Rule 11 omissions. Flynn was well
aware that he had the right to the assistance of
counsel at all stages of the proceeding, because he had
already been represented by his attorneys at the
arraignment and motions hearings in this case.
Additionally, Flynn is not indigent, and thus
appointment of counsel was not relevant to the
realities of this case.
Flynn further argues that the Court failed to
advise him of the presumption of innocence. Flynn
again misrepresents the record. The Court told Flynn
that, “[i]f you did go forward to trial, you’d have the
benefit of the presumption of innocence. That’s an
important part of our Constitution and it has a couple
ramifications of how it plays out with regard to a
criminal trial.” Id. at 8. Flynn was not only told of the
presumption, the Court also explained the operation
of the presumption of innocence to protect his rights
at trial.
There were no Rule 11 omissions to constitute a
just and fair reason to withdraw Flynn’s guilty plea.
d. Supreme Court’s Decision in
Marinello v. United States
Flynn argues that the Klein conspiracy charged
in Count 1 under 18 U.S.C. § 371 did not properly
state an offense after the Supreme Court’s decision in

31a
Marinello, 138 S. Ct. 1101. Because Marinello was
decided in March 2018, almost three months before
Flynn entered his plea and nearly nine months after
he sought to withdraw the plea, this argument is in
effect an untimely Rule 12 motion.
In Marinello, the Supreme Court interpreted the
scope of 26 U.S.C. § 7212(a)’s Omnibus Clause, which
forbids “corruptly or by force or threats of force . . .
obstruct[ing], or imped[ing], or endeavor[ing] to
obstruct or impede, the due administration of the [Tax
Code].” Id. at 1104; 26 U.S.C. § 7212(a). The Supreme
Court examined the language, statutory context, and
legislative history of the clause and concluded that
“‘due administration of the [Tax Code]’ does not cover
routine administrative procedures that are nearuniversally applied to all taxpayers, such as the
ordinary processing of income tax returns. Rather, the
clause as a whole refers to specific interference with
targeted governmental tax-related proceedings, such
as an investigation or audit.’” Id. Based on this narrow
interpretation, the Supreme Court held that to obtain
an obstruction conviction under § 7212(a), the
government is required to show a nexus between the
defendant’s conduct and a particular IRS proceeding
that was pending or reasonably foreseeable at the
time the defendant engaged in the obstructive
conduct. Marinello, 138 S. Ct. at 1109–10.
Flynn argues that the nexus element of 26 U.S.C.
§ 7212(a) applies equally to a Klein conspiracy
charged under 18 U.S.C. § 371 because the language
used for charging Klein conspiracies is identical in
scope to the language at issue in Marinello. Flynn
contends that the limitation in Marinello must be

32a
imported to Klein conspiracies to avoid an overly
broad application of § 371.
The Court disagrees. Section 371 makes it a
crime for “two or more persons [to] conspire either to
commit any offense against the United States, or to
defraud the United States, or any agency thereof in
any manner for any purpose.” 18 U.S.C. § 371. As the
statutory text indicates, § 371 has two prongs—an
“offense” prong and a “defraud” prong. Flynn is
charged under § 371's defraud prong. Unlike the
offense prong, the defraud prong does not require the
existence of an underlying offense. See United States
v. Tuohey, 867 F.2d 534, 537 (9th Cir. 1989) (“[T]he
defraud part of section 371 criminalizes any willful
impairment of a legitimate function of government,
whether or not the improper acts or objective are
criminal under another statute.”); United States v.
Rosengarten, 857 F.2d 76, 78 (2d Cir. 1988) (“A
conspiracy to frustrate or obstruct the IRS’s function
of ascertaining and collecting income taxes falls
clearly within the ban of section 371. This is so even
though the contemplated substantive acts, standing
alone, would not constitute a federal offense.”)
(internal citations omitted).
Additionally, the Supreme Court has long
interpreted § 371's defraud prong as “broad enough in
its terms to include any conspiracy for the purpose of
impairing, obstructing or defeating the lawful
function of any department of government.” Haas v.
Henkel, 216 U.S. 462, 479 (1910). In recent years the
Supreme Court was presented with the opportunity to
clarify or narrow the scope of § 371 conspiracies, but
declined to do so. Specifically, in 2012 the Second

33a
Circuit rejected a vagueness challenge to Klein
conspiracies by stating that “the Klein doctrine
derives from and falls within the scope of the law . . .
grounded on long-lived Supreme Court decisions,” and
that “such arguments are properly directed to a higher
authority.” United States v. Coplan, 703 F.3d 46, 62
(2d Cir. 2012), cert. denied 571 U.S. 819 (2013). The
Supreme Court declined to grant certiorari in that
case, thereby leaving its longstanding precedent in
place. Coplan, 571 U.S. 819. Marinello does not
address § 371, and the Court does not construe it as
silently overturning the well-settled law governing
conspiracies to defraud the United States.
For these and other reasons, the limitations on
the substantive offense of 26 U.S.C. § 7212(a) do not
apply to Klein conspiracies charged under the general
conspiracy statute of 18 U.S.C. § 371.
2. Alternative Bases for Denial of Motion to
Withdraw Plea
Flynn’s decision to plead guilty was tardy,1 just
prior to trial. Now just prior to sentencing, he again
makes a tardy decision. This time he seeks to
withdraw the guilty plea he clearly understood
resolved his right to trial on June 4, 2018. The
procedural history of this case reflects the defendant’s
apparent effort to prolong the inevitable.

So tardy was his decision that he deprived himself of a
recommendation of a third point for acceptance of responsibility
which would have lowered his offense level. The Government as
early as June of 2018 was already asserting prejudice from
Flynn’s indecision about resolving his case.
1

34a
Flynn states he is “asserting his innocence where
the factual basis for a federal offense does not exist in
the record.” Def.’s Mem. Supp. Mot. Withdraw Guilty
Plea [Docket No. 116] at 26. As discussed above,
however, an ample factual basis does exist.
The Government would suffer substantial
prejudice if Flynn were allowed to retract his plea. The
Government has spent considerable time and
resources preparing this complex case for trial,
including three months of trial preparation, flying a
witness twice from Costa Rica to Minneapolis, and
paying a tax expert $8,000 to prepare for testifying.
Gov’t Supplemental Mem. [Docket No. 127] at 7. Were
Flynn allowed to withdraw his plea, much of the trial
preparation process would need to be repeated.
Further, witness memories will have faded from the
time Flynn entered his eleventh hour plea in June of
2018 to the time the Government could again be ready
for trial in several months.
For the foregoing reasons, Flynn’s request to
withdraw his guilty plea is denied and the case will
proceed to sentencing.
C. Materials to be Considered at Sentencing
At the Court’s request, the parties briefed the
issue of whether a defendant who substitutes retained
counsel after pleading guilty may rely on sentencing
arguments of prior counsel. The Government contends
that under 18 U.S.C. § 3661, no limit exists to the
information a court may consider in imposing an
appropriate sentence. The Government thus states
that it would not object to Flynn’s new counsel “either
relying on or refuting arguments made by prior

35a
counsel, so long as the record is clear as to what
arguments are now being advanced.” Gov’t
Supplemental Mem. at 4.
Flynn states that his successor counsel is “free to
adopt or not adopt the positions of prior counsel” and
that he “refuses to adopt any position of prior counsel
inconsistent with his current Motion to Withdraw
Guilty Plea.” Def.’s Supplemental Mem. [Docket No.
128] at 1. Flynn’s counsel does not identify any
inconsistent position beyond stating at the hearing
that “a motion to withdraw the guilty plea is
inconsistent with acceptance of responsibility.” Plea
Tr. at 28:21–23.
Based on the parties’ positions, the Court will
consider the entire record, including sentencing
arguments advanced by prior counsel, in imposing an
appropriate sentence. The Court’s courtroom deputy
will be in contact with the parties to select a
sentencing date.
IV. CONCLUSION
Based upon the foregoing, and all of the files,
records and proceedings herein, IT IS HEREBY
ORDERED that Defendant Scott Phillip Flynn’s
Motion to Continue Sentencing [Docket No. 113] is
GRANTED, and the Motion to Withdraw Guilty Plea
[Docket No. 115] is DENIED.
BY THE COURT:
s/Ann D. Montgomery
ANN D. MONTGOMERY
U.S. DISTRICT JUDGE
Dated: January 8, 2019.

36a
Appendix C
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,
v.

Plaintiff,

Scott Phillip Flynn,

ORDER
Criminal No. 16-347 ADM/KMM

Defendant.
David J. MacLaughlin and Benjamin F. Langner,
Assistant United States Attorneys, United States
Attorney’s Office, Minneapolis, MN, on behalf of
Plaintiff.
Ian M. Comisky, Esq,. and Patrick J. Egan, Esq., Fox
Rothschild LLP, Philadelphia, PA, on behalf of
Defendant.
This matter is before the undersigned United
States District Judge for a ruling on Defendant Scott
Phillip Flynn’s (“Flynn”) Motion for Continuance
and/or Bifurcation of Sentencing and Restitution
Hearing [Docket No. 133] and Plaintiff United States
of America’s (the “Government”) Motion for
Evidentiary Hearing [Docket No. 134].
Flynn requests that his sentencing and
restitution hearing be continued and asks the Court
to set a jury trial as to the amount of restitution to be

37a
ordered. Flynn is not entitled to a jury trial on the
amount of restitution. United States v. Carruth, 418
F.3d 900, 904 (8th Cir. 2005); 18 U.S.C. § 3664(e)
(“Any dispute as to the proper amount or type of
restitution shall be resolved by the court by the
preponderance of the evidence.”).
The Government requests an evidentiary
hearing at sentencing to determine the amount of
Flynn’s restitution. The Court agrees that an
evidentiary hearing is necessary. The Government
anticipates a hearing of approximately one hour.
The issues of restitution in this case are familiar
to the Court. If the evidence concerning the restitution
becomes more complicated than anticipated, the
Court may continue the restitution after sentencing as
prescribed by 18 U.S.C. § 3664(d)(5).
The Court permitted Flynn to change counsel at
this late stage in the case based in part upon an
understanding that the change in counsel would not
cause further delays in the case. See Mem. Op. &
Order [Docket No. 131] at 4. Seven months have
elapsed since Flynn’s plea of guilty and more than two
years since the Indictment.
Based on the foregoing, as well as all the files,
records, and proceedings in this case, IT IS HEREBY
ORDERED that:
1. Defendant Scott Phillip Flynn’s Motion for
Continuance and/or Bifurcation of Sentencing
and Restitution Hearing [Docket No. 133] is
DENIED; and

38a
2. The Government’s Motion for Evidentiary
Hearing [Docket No. 134] is GRANTED.
BY THE COURT:
s/Ann D. Montgomery
ANN D. MONTGOMERY
U.S. DISTRICT JUDGE
Dated: January 17, 2019.

39a
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1263
United States of America
v.

Appellee

Scott Phillip Flynn
Appellant
Appeal from U.S. District Court for the District of
Minnesota
(0:16-cr-00347-ADM-1)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
September 17, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

40a
Appendix E
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Criminal No. 16-347(ADM/KMM)
UNITED STATES OF
AMERICA,
Plaintiff,
v.
SCOTT PHILLIP
FLYNN, a/k/a
Phil Flynn,

SECOND SUPERSEDING
INDICTMENT
18 U.S.C. § 371
26 U.S.C. § 7201
26 U.S.C. § 7206(1)

Defendant.
THE UNITED STATES GRAND JURY CHARGES
THAT:
OVERVIEW
1. Between 2005 and 2015, defendant SCOTT
PHILLIP FLYNN evaded the assessment of millions
of dollars in income taxes by fraudulently hiding
millions of shares of stock that he obtained for himself,
his father, and entities they controlled (collectively,
the “Flynn Group”) under other people's names. As
described in detail below, the defendant—acting
through certain of the Flynn Group entities—was a
consultant who, in transactions in 2006 and 2008,
assisted two privately-held client companies to
become subsidiaries of publicly-traded shell
companies through "stock-for-stock" transactions. As

41a
compensation for the defendant's work on those
transactions, the Flynn Group received millions of
shares of corporate stock in the resulting publiclytraded companies. The shares had considerable value,
and the defendant exercised dominion and control
over the stock. The defendant should have, but did
not, report the receipt of the shares of stock as income
on his United States Individual Income Tax Returns,
or on the tax returns of members of the Flynn Group,
for the years when the shares were received. In order
to disguise and conceal his control and ownership of
the stock, and to evade paying taxes on this income,
the defendant caused a portion of the stock to be
transferred to “nominees” (i.e., people who agreed to
hold the stock in their names, but never actually
owned or controlled the stock).
2. Furthermore, the defendant obtained millions
of additional shares of stock in the publicly-traded
shell companies prior to delivering the publicly-traded
shell company to his clients by transferring those
shares into the names of nominees. The defendant
thereby obtained millions of shares of stock, which
had a significant value.
3. Over the succeeding years, when the defendant
needed money, he caused certain of the nominees to
sell shares of stock and transfer the proceeds to
entities in the United States controlled by the
defendant, which in turn made payments to the
defendant or on his behalf. These sales generated
capital gains income, which the defendant purposely
failed to report on his United States Individual
Income Tax Returns, or on the tax returns of any
member of the Flynn Group.
4. Through the techniques set forth above,
defendant SCOTT PHILLIP FLYNN concealed

42a
millions of dollars in income and capital gains from
the Internal Revenue Service between approximately
2005 and 2011, and intentionally evaded the
assessment of millions of dollars in income taxes owed
by him and other members of the Flynn Group, which
remain due and owing.
INTRODUCTORY ALLEGATIONS
At times relevant to this Second Superseding
Indictment:
5. Defendant SCOTT PHILLIP FLYNN was an
individual resident of the State of Minnesota.
6. Phillip J. Flynn, defendant SCOTT PHILLIP
FLYNN's father, lived in Plymouth, Minnesota until
his death on July 10, 2014. Phillip J. Flynn
participated in the conspiracy by serving as the owner
of certain companies used by him and by the
defendant to carry out the scheme described herein.
7. Integritas Consulting, Inc. (“Integritas”), the
primary corporate member of the Flynn Group, was a
corporation primarily controlled and operated by
defendant SCOTT PHILLIP FLYNN. Through
Integritas, SCOTT PHILLIP FLYNN performed
services for his clients, which generally involved
assisting privately-held companies to become
publicly-traded companies, as described in more detail
below. In exchange for performing these services,
SCOTT PHILLIP FLYNN arranged for Integritas to
receive a fee, typically paid in the form of shares of
stock in the resulting publicly-traded company.
8. In a “stock-for-stock” transaction, the shareholders of a privately-held company seek to exchange
their shares in the privately-held company for shares
of stock in a publicly-traded shell company. As a

43a
result, the privately-held company becomes a
subsidiary of the publicly-traded company, effectively
converting the private company into a public
company. Additionally, the shareholders of the
private company become majority owners of the public
parent company. The majority stake of stock delivered
to the former owners of the privately-held company at
closing is sometimes referred to as the “control group”
of shares of the resulting publicly-traded company.
The remaining shares, which typically continue to be
owned by the individuals who previously owned stock
in the publicly-traded company, are sometimes
referred to as the “free-trading shares.” Under certain
circumstances, the Securities and Exchange
Commission (“SEC”) mandates that the publiclytraded company disclose the owners of more than 5%
and 10% of its stock in a filing with the SEC.
9. Defendant SCOTT PHILLIP FLYNN used
Integritas, and the following additional Flynn Group
entities, to conceal income by receiving the proceeds of
the sale of the stock sold by nominees:
· Apex Distributors, Inc. (formerly Apex
Neutriceuticals);
· Desert Inn Holdings, LLP;
· Watertown Properties, LLC;
· Diversified Equities Partners, LLC;
· Diversified Marketing Partners, LLC;
· Creative Visions, LLC; and
· First Advallorem, Inc.
10. Co-conspirator S.M. was an Australian
attorney who participated in the conspiracy by
coordinating the recruitment of several individuals—
many of them Australian citizens (hereafter the
“Australian Nominees”)—to “own” stocks and to
receive the proceeds of stock sales, in order to conceal

44a
the Flynn Group’s beneficial ownership of the stocks
and defendant FLYNN's control of the cash proceeds
generated when the stock was sold.
11. A.B. was a Costa Rican attorney who, at
defendant FLYNN’s direction, recruited numerous
Costa Rican citizens to open United States brokerage
accounts, and bank accounts in Costa Rica, in order to
hold, as nominees, stock that was beneficially owned
by the. Flynn Group, and controlled by defendant
SCOTT PHILLIP FLYNN. Additionally, at FLYNN’s
direction, A.B. also received millions of dollars from
the proceeds of stock sales from the Australian
Nominees who had been recruited by S.M., and then
wired those proceeds to individuals or entities in the
United States as directed by SCOTT PHILLIP
FLYNN.
12. P.A. recruited numerous individuals in the
United States (hereafter the “U.S. Nominees”) to hold,
as nominees, stock in publicly-traded shell companies.
13. R.S. was an attorney who represented the
publicly-traded shell entities involved in this case
during the stock-for-stock transactions.
14. Pacific Stock Transfer Company, located in
Las Vegas, Nevada, acted as the transfer agent and
registrar of the publicly-traded stocks which resulted
from the transactions facilitated by defendant SCOTT
PHILLIP FLYNN.
COUNT 1
(18 U.S.C. § 371: Conspiracy to Defraud the
United States)
15. Paragraphs 1-14 are hereby realleged and
incorporated by reference.

45a
16. Beginning in or about 2005 and continuing
through at least in or about 2015, in the State and
District of Minnesota and elsewhere, the defendant,
SCOTT PHILLIP FLYNN,
a/k/a Phil Flynn,
and others known and unknown to the grand jury,
including but not limited to S.M. and Phillip J. Flynn,
did unlawfully and knowingly conspire, combine,
confederate, and agree with each other to defraud the
United States by deceitful and dishonest means by
impeding, impairing, obstructing, and defeating the
lawful governmental functions of the Internal
Revenue Service, an agency of the United States, and
the Treasury Department of the United States in the
ascertainment, computation, assessment, and
collection of revenue, that is, United States income
taxes of defendant SCOTT PHILLIP FLYNN, and the
other members of the Flynn Group, including
Integritas and Phillip J. Flynn.
OBJECT OF THE CONSPIRACY
17. The object of the conspiracy was to evade the
assessment of income taxes on millions of dollars of
income received and controlled by defendant SCOTT
PHILLIP FLYNN, Phillip J. Flynn, Integritas, and
other members of the Flynn Group.
MANNER AND MEANS
18. Defendant SCOTT PHILLIP FLYNN, and/or
others acting at his direction, carried out this
conspiracy through the following manner and means,
among others:
The Tower Tech Transaction
19. On or about June 7, 2005, defendant SCOTT
PHILLIP FLYNN—acting through Integritas—
entered into a written agreement (hereinafter
referred to as the “Tower Tech Consulting

46a
Agreement”) with Tower Tech Systems, Inc. (“Tower
Tech”), a privately-held Wisconsin company engaged
in the design and manufacture of wind turbine
extension towers that sought to become publicly
traded. In the Tower Tech Consulting Agreement,
Integritas represented that it had “considerable
experience and expertise in the areas of mergers &
acquisitions, venture capital, and marketing,” and
agreed to “assume responsibility for the identification,
securing and payment for a suitable merger
candidate.” The Tower Tech Consulting Agreement
provided that the original shareholders of Tower Tech
would own 65 percent of the outstanding capital stock
of the public entity resulting from the transaction.
20. Pursuant to the Tower Tech Consulting
Agreement, defendant SCOTT PHILLIP FLYNN,
with the assistance of S.M., P.A., and R.S., identified
and arranged for the purchase of Blackfoot
Enterprises, Inc. (hereinafter “Blackfoot”), a publiclytraded shell company, to acquire Tower Tech.
21. In connection with the acquisition of
Blackfoot, the defendant also obtained control over
substantially all of the free-trading shares of
Blackfoot, which P.A. and others had caused to be
transferred into the names of the U.S. Nominees.
Thereafter, a significant portion of the free-trading
shares, although nominally held by others, was
beneficially owned and controlled by FLYNN and the
Flynn Group.
22. At the direction of defendant SCOTT
PHILLIP FLYNN and S.M., the Australian Nominees
opened United States brokerage accounts in order to
receive shares of stock beneficially owned and
controlled by FLYNN and the Flynn Group. The
Australian Nominees also opened Australian United

47a
States dollar accounts at National Australia Bank to
receive sales proceeds when the shares of stock were,
from time to time after the consummation of the
Tower Tech transaction, sold by and at the direction
of defendant SCOTT PHILLIP FLYNN.
23. On or about October 14, 2005, in anticipation
of the Tower Tech transaction, defendant SCOTT
PHILLIP FLYNN and S.M. caused Pacific Stock
Transfer Company to transfer the free-trading shares
of Blackfoot under their control from the U.S.
Nominees to the Australian Nominees.
24. On or about January 18, 2006, defendant
SCOTT PHILLIP FLYNN caused Blackfoot to file
with the SEC a false and misleading “Information
Statement,” through which Blackfoot disclosed who
would be the “beneficial owners” of more than 5% and
10% of its stock after the intended transaction with
Tower Tech. The filing listed Integritas as owning
2,500,000 shares, but did not disclose the substantial
number of free-trading shares that the Flynn Group
beneficially owned but had caused to be transferred
into the names of the Australian Nominees.
25. On or about February 6, 2006, defendant
SCOTT PHILLIP FLYNN, through Integritas,
completed the Tower Tech transaction. As a result,
Tower Tech became a wholly-owned subsidiary of
Blackfoot. Blackfoot then changed its name to “Tower
Tech Holdings Inc.” and traded on the OTC Bulletin
Board market for approximately $2.95 per share
under the ticker symbol TWRT.
26. In exchange for FLYNN's work on the Tower
Tech transaction, on or about February 6, 2006,
Integritas received 2,500,000 shares of TWRT stock.
Neither Integritas nor defendant FLYNN nor any
member of the Flynn Group reported the receipt of

48a
this in-kind fee as income on any tax return.
Thereafter, the defendant provided a portion of these
shares to other individuals who assisted in arranging
the Tower Tech transaction, but kept at least
approximately 700,000 of the shares in Integritas’s
name.
27. On or about March 5, 2007, defendant
FLYNN caused Integritas to receive an additional
1,500,000 shares of TWRT stock as compensation for
consulting work related to fundraising that the
defendant performed after the Tower Tech
transaction. Neither defendant FLYNN nor Integritas
reported the receipt of the shares as income.
28. Thus, through the means set forth above,
defendant SCOTT PHILLIP FLYNN, Integritas and
other members of the Flynn Group: (a) received
approximately 2,500,000 shares of TWRT stock as a
fee for the services defendant FLYNN provided to
Tower Tech; (b) earned another approximately
1,500,000 shares of TWRT stock through consulting
work that defendant FLYNN performed after the
transaction; and (c) surreptitiously took millions of
additional shares of TWRT stock by causing those
shares to be transferred to nominees that FLYNN
controlled prior to the transaction. These shares were
worth millions of dollars at the time that Integritas
and the defendant received them, yet their receipt was
never reported as income on FLYNN's income tax
return or on the tax return of any other member of the
Flynn Group.
Advanced Fiberglass Technologies Transaction
29. On or about September 7, 2007, defendant
SCOTT
PHILLIP
FLYNN—acting
through
Integritas—entered into a written agreement
(hereinafter referred to as the “AFT Consulting

49a
Agreement”) with Advanced Fiberglass Technologies
(“AFT”), a privately-held Wisconsin company which
manufactured and sold filament-wound storage tanks
designed to store ethanol, water, and waste products.
In the AFT Consulting Agreement, Integritas
represented that it had “considerable experience and
expertise in the areas of mergers & acquisitions,
venture capital, and marketing.” The AFT Consulting
Agreement provided that (as in the Tower Tech
transaction described above) Integritas would find a
public “shell” corporation to acquire AFT. The AFT
Consulting Agreement provided that the original
owners of Advanced Fiberglass Technologies would
own 60 percent of the shares of the resulting public
entity.
30. Pursuant to the AFT Consulting Agreement,
defendant SCOTT PHILLIP FLYNN, with the
assistance of S.M., P.A., and R.S., identified and
arranged for the purchase of Las Palmas Mobile
Estates (hereinafter “Las Palmas”), a publicly-traded
shell company, to acquire AFT.
31. In connection with the, acquisition of Las
Palmas, defendant SCOTT PHILLIP FLYNN also
obtained a significant portion of the free-trading
shares of Las Palmas, which had previously been
transferred into the names of the U.S. Nominees.
Thereafter, a significant portion of the free-trading
shares was, although nominally held by others,
beneficially owned and controlled by FLYNN and the
Flynn Group.
32. On or about November 15, 2007, in
anticipation of the AFT transaction; defendant
SCOTT PHILLIP FLYNN and S.M. caused Pacific
Stock Transfer Company to transfer the free-trading
shares of Las Palmas under their control from the U.S.

50a
Nominees to the Australian Nominees (many of whom
were previously utilized in the Tower Tech
transaction).
33. On or about September 24, 2008, defendant
SCOTT PHILLIP FLYNN caused Las Palmas to file
with the Securities and Exchange Commission a false
and misleading statement which purported to disclose
who would be the “beneficial owners” of more than 5%
and 10% of its stock after the intended transaction
with AFT. The filing listed Integritas as owning
4,500,000 shares, but did not disclose the substantial
number of free-trading shares that the Flynn Group
beneficially owned but had caused to be transferred
into the names of the Australian Nominees.
34. On or about October 14, 2008, defendant
SCOTT PHILLIP FLYNN, through Integritas,
completed the AFT transaction. As a result, AFT
became a wholly-owned subsidiary of Las Palmas. Las
Palmas then changed its name to Energy Composites
Corporation (“Energy Composites”). It thereafter
traded under the symbol ENCC on the OTC Bulletin
Board, which traded at approximately $1.50 per share
immediately after the transaction.
35. In exchange for defendant FLYNN’s services
to AFT, on or about October 14, 2008, Integritas
received 4,500,000 shares of Las Palmas/ENCC. The
defendant provided a portion of the shares to other
individuals who assisted in arranging the AFT
transaction, but kept at least approximately 2,000,000
ENCC Shares, including approximately 550,000
shares which he transferred to one of the Australian
nominees. Neither FLYNN, Integritas, nor any other
member of the Flynn Group reported the in-kind fee
of ENCC shares as income.

51a
36. On or about August 24, 2010, FLYNN caused
Diversified Equities Partners (“DEP”) to enter into an
additional consulting agreement with Energy
Composites Corporation, pursuant to which DEP
received 3,375,000 shares of ENCC as compensation
for consulting work. The defendant, or Phillip J. Flynn
at the defendant's request, purported to transfer all of
those shares to A.B. or nominees recruited by A.B.
Neither DEP nor any other member of the Flynn
Group reported the receipt of these ENCC shares on
any income tax returns.
37. Thus, through the means set forth above,
defendant SCOTT PHILLIP FLYNN, Integritas, DEP
and Phillip J. Flynn: (a) received approximately
4,500,000 shares of ENCC stock as a fee for the
services FLYNN provided to AFT; (b) earned another
3,375,000 shares of ENCC stock through consulting
work that FLYNN performed after the transaction;
and (c) acquired millions of shares of ENCC stock by
causing those shares to be transferred to nominees
that FLYNN controlled prior to the transaction. These
shares were worth millions of dollars at the time that
the FLYNN and the Flynn Group received them, yet
their receipt was never reported as income on
FLYNN’s income tax return or on the tax return of any
other member of the Flynn Group.
Defendant Realizes Capital Gains From the
Australian Nominees’ Sale of Stock
38. As set forth above, defendant SCOTT
PHILLIP FLYNN caused millions of shares of TWRT
and ENCC stock to be transferred to the Australian
nominees. Thereafter, defendant SCOTT PHILLIP
FLYNN and S.M. carefully tracked and controlled the
Australian Nominees' brokerage and bank accounts.

52a
39. Using the user names and passwords
associated with the Australian Nominees' accounts,
defendant SCOTT PHILLIP FLYNN and S. M. caused
the Australian Nominees to sell the TWRT and ENCC
shares at various prices during the years 2006
through 2013. The defendant then transferred, or
caused the transfer of, the sales proceeds, in the
aggregate amount of approximately $10 million, to the
United States dollar accounts of the Australian
Nominees at National Australia Bank. Defendant
FLYNN later directed a large portion of these funds
back to the United States, as described below, and
caused them to be spent for defendant FLYNN's
personal benefit or at his direction.
40. When the shares of TWRT and ENCC were
sold by the Australian Nominees, the defendant
should have, but did not, report the resulting capital
gains on his United States income tax returns, or on
any tax return of any member of the Flynn Group for
the years when the sales occurred.
Money Returned to the United States
to the Flynn Group for the Benefit of
Defendant SCOTT PHILLIP FLYNN
41. In some cases, S.M. wired, or caused the
Australian Nominees to wire, the proceeds generated
by the sale of the TWRT and ENCC stock directly from
Australia to persons or entities specified by defendant
SCOTT PHILLIP FLYNN in the United States. For
example, defendant SCOTT PHILLIP FLYNN
recruited an individual named B.N. to receive
approximately $104,500 in TWRT stock sales
proceeds directly from Australia, and instructed B.N.
to transfer the funds to defendant SCOTT PHILLIP
FLYNN, or to defendant SCOTT PHILLIP FLYNN's
wife, upon receipt.

53a
42. In addition, defendant SCOTT PHILLIP
FLYNN directed S.M. to wire the proceeds of TWRT
and ENCC stock sales to A.B., whom defendant
SCOTT PHILLIP FLYNN then directed to wire the
funds, in the aggregate amount of at least $3,620,000,
to one or more members of the Flynn Group in the
United States.
43. During the taxable years 2006 through 2011,
various members of the Flynn Group paid
approximately $405,000 directly to defendant SCOTT
PHILLIP FLYNN. The Flynn Group paid at least
another $624,000 on the defendant’s behalf during
this time. Despite receiving significant funds directly
and indirectly from entities he controlled, defendant
SCOTT PHILLIP FLYNN failed to report most of
these amounts as income in any year, instead falsely
claiming that a portion of the monies he received
directly from Integritas, Apex Distributors,
Diversified Marketing Partners, and other members
of the Flynn Group, was a nontaxable loan.
Watertown Properties House
44. On or about July 25, 2007, defendant SCOTT
PHILLIP FLYNN caused Watertown Properties to
purchase a home in Orono, Minnesota (the “Orono
Home”) for $2.7 million. Defendant SCOTT PHILLIP
FLYNN has utilized the Orono Home as his personal
residence since its acquisition by Watertown
Properties. Defendant SCOTT PHILLIP FLYNN used
funds transferred to Desert Inn Holdings by Costa
Rican attorney A.B. to pay for the Orono Home. These
funds originated from the Tower Tech transaction and
were never reported on any tax return of any member
of the Flynn Group.
45. On or about July 19, 2007, defendant SCOTT
PHILLIP FLYNN caused Desert Inn Holdings to file

54a
a sham mortgage with the Hennepin County
Recorder’s Office as purported evidence of Watertown
Properties’ indebtedness to Desert Inn Holdings for
the funds used to purchase the Orono Home.
46. In approximately early 2008, defendant
SCOTT PHILLIP FLYNN purported to cause a
transfer of a 98 percent stake in Desert Inn Holdings
to a Guatemalan shell company owned by A.B.,
Burlington, S.A., in order to create the appearance
that Burlington, S.A. had loaned Desert Inn Holdings
the funds defendant SCOTT PHILLIP FLYNN
utilized to buy the Orono Home.
47. Between 2007 and 2015, defendant SCOTT
PHILLIP FLYNN caused various members of the
Flynn Group to transfer more than $600,000 to a bank
account in the name of Watertown Properties at Wells
Fargo Bank, which defendant SCOTT PHILLIP
FLYNN used to improve and maintain the Orono
Home. Despite the fact that defendant SCOTT
PHILLIP FLYNN has lived in the Orono Home since
its purchase, and that the house improvements
benefitted only him, defendant SCOTT PHILLIP
FLYNN never reported any portion of the more than
$600,000 he received to improve the Orono Home on
his personal income tax return during any year.
48. During the taxable years 2007 through 2011,
defendant SCOTT PHILLIP FLYNN listed his
address as the address of Phillip J. Flynn on his tax
returns, rather than the address of the Orono Home,
in order to conceal his ownership of the Orono Home
from the IRS.
OVERT ACTS
49. In furtherance of the conspiracy and to
achieve the object thereof, defendant SCOTT
PHILLIP FLYNN, and/or others acting at their

55a
direction, committed the following overt acts, among
others, in the District of Minnesota:
a. On. or about October 13, 2005, defendant
SCOTT PHILLIP FLYNN caused Pacific Stock
Transfer Company to transfer millions of shares of
Blackfoot to the Australian Nominees in anticipation
of the Tower Tech transaction.
b. On or about March 10, 2006, S.M. wired
$15,000 to B.N., whom defendant SCOTT PHILLIP
FLYNN instructed to transfer the fun& to defendant
SCOTT PHILLIP FLYNN or his wife.
c. On or about July 18, 2007, defendant SCOTT
PHILLIP FLYNN caused Australian Nominee J.S. to
transfer TWRT sales proceeds in the amount of
$870,008 from Terra Nova Financial to a United
States dollar account at National Australia Bank in
the name of Nominee J.S.
d. On or about July 18, 2007, defendant
SCOTT PHILLIP FLYNN caused Australian Nominee
B.S. to transfer TWRT sales proceeds in the amount
of $1,390,000 from Terra Nova Financial to a United
States dollar account at National Australia Bank in
the name of Nominee B.S.
e. On or about July 20, 2007, defendant
SCOTT PHILLIP FLYNN caused Australian
Nominees J.S. and B.S. to transfer $2,259,000 to
Costa Rican bank accounts controlled by A.B.
f. On or about July 24, 2007, defendant SCOTT
PHILLIP FLYNN caused Costa Rican attorney A.B. to
transfer $2,250,000 to Desert Inn Holdings to be used
by defendant SCOTT PHILLIP FLYNN to purchase
the Orono Home.
g. On or about November 15, 2007, defendant
SCOTT PHILLIP FLYNN caused Pacific Stock
Transfer Company to transfer millions of shares of

56a
Las Palmas to the Australian Nominees in
anticipation of the Energy Composites transaction.
h. On or about October 17, 2008, defendant
SCOTT PHILLIP FLYNN filed a materially false
United States income tax return for the year 2007 in
which he reported in line 22 that he had total income
of only $26,136 when, as he well knew, his income was
substantially higher than $26,136, and in which he
reported that his “home address” was the address of
Phillip J. Flynn when, as he well knew, he lived in the
Orono Home.
i. On or about July 26, 2013, defendant SCOTT
PHILLIP FLYNN caused Australian Nominee K.P. to
sell 12,700 shares of Broadwind Energy for $63,500.
j. On October 15, 2013, defendant SCOTT
PHILLIP FLYNN filed a materially false United
States income tax return for the year 2011 in which
he reported in line 22 that he had total income of only
$32,094 when, as he well knew, his income was
substantially higher than $32,094, and in which he
reported that his “home address” was the address of
Phillip J. Flynn when, as he well knew, he lived in the
Orono Home.
All in violation of Title 18, United States Code,
Section 371.
COUNT 2
(Tax Evasion – 2005-2011)
50. The Grand Jury restates and incorporates by
reference the allegations set forth in paragraphs 1
through 49 above.
During the years 2005, 2006, 2007, 2008, 2009,
2010 and 2011, defendant SCOTT PHILLIP FLYNN
had and received a substantial amount of taxable
income, upon which there was a substantial amount
of income tax due and owing.

57a
Well knowing and believing the foregoing facts,
the defendant,
SCOTT PHILLIP FLYNN,
did willfully attempt to evade and defeat the
assessment of individual income taxes due and owing
by him to the United States of America for those
calendar years, by committing various affirmative
acts of evasion, including, but not limited to:
a. In September 2005, defendant SCOTT
PHILLIP FLYNN transferred millions of shares of
Blackfoot to the Australian nominees.
b. In July 2006, defendant SCOTT PHILLIP
FLYNN received $102,450 in cash from S.M. which he
hid from the United States, and did not report as
income on his United States Individual Income Tax
Return for the year 2006, by causing it to be routed
through the bank account of B.N. and then sent to him
or his wife.
c. On October 17, 2007, defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for the year 2006 which materially
underreported his total income and falsely listed his
home address as that of Phillip J. Flynn.
d. In November 2007, defendant SCOTT
PHILLIP FLYNN transferred millions of shares of
ENCC stock to the Australian Nominees.
e. In approximately mid 2007, defendant
SCOTT PHILLIP FLYNN hid substantial capital
gains income from the IRS by i) causing two
Australian Nominees to sell approximately $2.3 worth
of TWRT stock; ii) instructing S.M. to wire
approximately $2.3 million to Costa Rican attorney
A.B.; and iii) instructing A.B. to wire the
approximately $2.3 million to Dessert Inn Holdings,
which defendant SCOTT PHILLIP FLYNN then used

58a
to purchase the Orono Home, which has served no
purpose other than being defendant SCOTT PHILLIP
FLYNN’s personal residence.
f. On July 10, 2008, defendant SCOTT
PHILLIP FLYNN caused a Form 1099 to be issued to
him and submitted to the IRS, showing income earned
of $33,400 from Apex Distributors in 2007, when he
well knew he earned substantially more than that
amount.
g. On October 17, 2008, defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for the year 2007 which materially
underreported his total income and listed his home
address as that of Phillip J. Flynn.
h. During 2007, defendant SCOTT PHILLIP
FLYNN caused Watertown Properties to pay
approximately $160,000 in expenses associated with
living in the Orono Home, including his personal bills
for electricity, satellite television, natural gas, and
property taxes, as well as bills for landscaping,
repairs, a pool table, a sound system and other luxury
items which were acquired exclusively for his personal
use, which he did not report on his 2007 income tax
return.
i. On May 29, 2009, defendant SCOTT
PHILLIP FLYNN caused a Form 1099 to be issued to
him and submitted to the IRS, showing income earned
of $28,400 from Apex Neutriceuticals in 2008, when
he well knew he earned substantially more than that
amount.
j. On October 18, 2009, Defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for the tax year 2008 which
materially underreported his total income and listed
his home address as that of Phillip J. Flynn.

59a
k. During 2008, defendant SCOTT PHILLIP
FLYNN had substantial capital gains income from the
sale of TWRT and ENCC stock, which he did not
report on his United States Individual Income Tax
Return for 2008.
1. On July 8, 2010, defendant SCOTT
PHILLIP FLYNN caused a Form 1099 to be issued to
him and submitted to the IRS, showing income earned
of $17,000 from Diversified Marketing Partners in
2009, when he well knew he earned substantially
more than that amount.
m. On October 15, 2010, defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for the year 2009 in which he
materially underreported his total income and listed
his home address as that of PHILLIP J. FLYNN.
n. During 2009, defendant SCOTT PHILLIP
FLYNN caused Watertown Properties to pay
approximately $104,000 in expenses associated with
living in the Orono Home, including his personal bills
for electricity, repairs, trash services and satellite
television, natural gas, and property taxes, as well as
bills for landscaping, repairs which were acquired
exclusively for his personal use, which he did not
report on his 2009 tax return.
o. On October 10, 2011, defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for the tax year 2010 which
materially underreported his total income and listed
his home address as that of Phillip J. Flynn.
p. During 2010, defendant SCOTT PHILLIP
FLYNN caused Watertown Properties to pay
approximately $182,000 in expenses associated with
living in the Orono Home, including his personal bills
for electricity, repairs, trash services, satellite

60a
television, natural gas, and property taxes, as well as
bills for landscaping, repairs, and other luxury items
which were acquired exclusively for his personal use,
which he did not report on his 2010 tax return.
q. During 2011, defendant SCOTT PHILLIP
FLYNN caused Watertown Properties to pay
approximately $90,000 in expenses associated with
living in the Orono Home, including his personal bills
for electricity, repairs, trash services, satellite
television, natural gas, insurance, and property taxes,
as well as bills for landscaping, repairs, painting, and
the construction of an outdoor kitchen, which were
acquired exclusively for his personal use, which he did
not report on his 2011 tax return.
r. On or about July 26, 2013, defendant
SCOTT PHILLIP FLYNN caused Australian Nominee
K. P. to sell 12,700 shares of Broadwind Energy for
$63,500.
s. On October 15, 2013, defendant SCOTT
PHILLIP FLYNN filed a United States Individual
Income Tax Return for 2011 which materially
underreported his total income and listed his home
address as that of Phillip J. Flynn.
All in violation of Title 26, United States Code,
Section 7201.
COUNT 3
(False Tax Return – 2007)
51. On or about October 17, 2008, in the State
and District of Minnesota, the defendant,
SCOTT PHILLIP FLYNN,
a/k/a Phil Flynn,
did willfully make and file with the Internal Revenue
Service a false United States Individual Income Tax
Return, Form 1040, separately from his wife, for the
taxable year ended December 31, 2007, which he

61a
signed and subscribed on or about October 15, 2008,
and which was verified by a written declaration that
it was made under the penalties of perjury, and which
said Income Tax Return he did not believe to be true
and correct as to every material matter, in that line 22
reported total income of $26,136 whereas, as he then
and there well knew and believed, his total income
was substantially more than $26,136.
All in violation of Title 26, United States Code,
Section 7206(1).
COUNT 4
(False Tax Return – 2008)
52. On or about October 18, 2009, in the State
and District of Minnesota, the defendant,
SCOTT PHILLIP FLYNN,
a/k/a Phil Flynn,
did willfully make and file with the Internal Revenue
Service a false United States Individual Income Tax
Return, Form 1040, separately from his wife, for the
taxable year ended December 31, 2008, which he
signed and subscribed on or about October 12, 2009,
and which was verified by a written declaration that
it was made under the penalties of perjury, and which
said Income Tax Return he did not believe to be true
and correct as to every material matter, in that line 22
reported total income of $20,597 whereas, as he then
and there well knew and believed, his total income
was substantially more than $20,597.
All in violation of Title 26, United States Code,
Section 7206(1).
COUNT 5
(False Tax Return – 2009)
53. On or about October 15, 2010, in the State
and District of Minnesota, the defendant,
SCOTT PHILLIP FLYNN,

62a
a/k/a Phil Flynn,
did willfully make and file with the Internal Revenue
Service a false United States Individual Income Tax
Return, Form 1040, separately from his wife, for the
taxable year ended December 31, 2009, which he
signed and subscribed on or about October 6, 2010,
and which was verified by a written declaration that
it was made under the penalties of perjury, and which
said Income Tax Return he did not believe to be true
and correct as to every material matter, in that line 22
reported total income of $19,289 whereas, as he then
and there well knew and believed, his total income
was substantially more than $19,289.
All in violation of Title 26, United States Code,
Section 7206(1).
COUNT 6
(False Tax Return – 2010)
54. On or about October 10, 2011, in the State
and District of Minnesota, the defendant,
SCOTT PHILLIP FLYNN,
a/k/a Phil Flynn,
did willfully make and file with the Internal Revenue
Service a false United States Individual Income Tax
Return, Form 1040, separately from his wife, for the
taxable year ended December 31, 2010, which he
signed and subscribed on or about October 10, 2011,
and which was verified by a written declaration that
it was made under the penalties of perjury, and which
said Income Tax Return he did not believe to be true
and correct as to every material matter, in that line 22
reported total income of $37,053 whereas, as he then
and there well knew and believed, his total income
was substantially more than $37,053.
All in violation of Title 26, United States Code,
Section 7206(1).

63a
COUNT 7
(False Tax Return – 2011)
55. On or about October 15, 2013, in the State
and District of Minnesota, the defendant,
SCOTT PHILLIP FLYNN,
a/k/a Phil Flynn,
did willfully make and file with the Internal Revenue
Service a false United States Individual Income Tax
Return, Form 1040, separately from his wife, for the
taxable year ended December 31, 2011, which he
signed and subscribed on or about October 14, 2013,
and which was verified by a written declaration that
it was made under the penalties of perjury, and which
said Income Tax Return he did not believe to be true
and correct as to every material matter, in that line 22
reported total income of $32,094 whereas, as he then
and there well knew and believed, their total income
was substantially more than $32,094.
All in violation of Title 26, United States Code,
Section 7206(1).
A TRUE BILL

UNITED STATES ATTORNEY

FOREPERSON

64a
Appendix F
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Criminal No. 16-347 (ADM/KMM)
UNITED STATES OF AMERICA,
Plaintiff,
PLEA AGREEMENT
v.
AND SENTENCING
STIPULATIONS
SCOTT PHILLIP FLYNN,
a/k/a PHIL FLYNN,
Defendant.

The United States of America and SCOTT
PHILLIP FLYNN (hereinafter referred to as the
“Defendant”) agree to resolve this case on the terms
and conditions that follow. This plea agreement binds
only the Defendant and the United States Attorney’s
Office for the District of Minnesota. This agreement
does not bind any other United States Attorney’s
Office or any other federal or state agency.
1. Charges. The Defendant agrees to plead
guilty to Counts 1 and 3 of the Second Superseding
Indictment, which charge the Defendant with
conspiring to defraud the United States by impairing
and impeding the lawful functioning of the IRS, and
filing a materially false United States Income Tax
Return on form 1040 for the calendar year 2007,
respectively, in violation of 18 U.S.C. Section 371 and
26 U.S.C. Section 7206(1).
2. In return for Defendant’s pleas of guilty to
Counts 1 and 3 of the Second Superseding Indictment,
the United States agrees to move the Court to dismiss

65a
the remaining counts in the Second Superseding
Indictment at sentencing.
3. Factual Basis. The Defendant stipulates and
agrees to the following facts and further agrees that
the stipulated facts constitute relevant conduct for
purposes of this case:
In 2006, the Defendant assisted a Wisconsin
company called Tower Tech Systems, Inc. in becoming
publicly traded through a stock-for-stock “reverse
merger” transaction. In 2008, the Defendant assisted
a second Wisconsin company, Advanced Fiberglass
Technologies, in becoming publically traded in the
same manner. As compensation for the Defendant’s
assistance in connection with these transactions,
millions of shares of publicly-traded stock in the
resulting public companies were transferred to a
company called “Integritas, Inc.” and to another
company called “Diversified Equities Partners,” over
both of which the Defendant exercised control.
In addition, the Defendant received millions of
additional shares in the resulting public companies,
which he caused to be put in the names of Australian
nominees recruited by the Defendant’s co-conspirator,
Steven Miotti. At Miotti’s direction, the Australian
nominees opened brokerage accounts in the United
States to receive the shares, but the Defendant
possessed login and password data with which he
controlled the accounts and the shares of stock.
During the period from 2006 through 2014, the
defendant caused the stock discussed above to be sold
and the proceeds, in the amount of approximately $15
million, to be transferred to United States Dollar
accounts held by the Australian nominees at National
Australia Bank. The Defendant exercised dominion
and control over these funds. The parties agree that

66a
this number – the aggregate amount of money
transferred to the Australian nominees’ United States
Dollar accounts in Australia from the sale of stock – is
the amount of unreported income for purposes of this
criminal case.
The Defendant agrees that he took the steps
described above in order to impair and impede the
lawful functioning of the IRS in ascertaining his
income tax liability during the years 2005 through
2015.
In 2007, the Defendant received approximately
$2.7 million of the proceeds from the Australian
nominees to buy a house in Orono, Minnesota, which
was income to the Defendant.
That year, the
Defendant reported $26,136 of total income on line 22
of his United States Individual Income Tax Return.
With respect to his 2007 United States Income
Tax Return, the Defendant acknowledges:
a.

that the Defendant made, subscribed and
filed the said return with the Internal
Revenue Service in the State of Minnesota on
October 17, 2008;

b.

that the Defendant signed the said return
under the penalties of perjury;

c.

that the Defendant knew that the said return
materially underreported his income for
2007 when he filed the return; and

d. that the Defendant filed the said return
willfully, knowing that he was violating the
law when he filed it.
The defendant acknowledges that his conduct violated
Title 18, United States Code, Section 371, and Title
26, United States Code, Section 7206(1).

67a
4. Statutory Penalties. The parties agree that
Count 1 of the Second Superseding Indictment carries
statutory penalties of:
a. a maximum of 5 years of imprisonment;
b.

a maximum supervised release term of 3
years;

c.

a fine of up to $250,000;

d.

a mandatory special assessment of $100; and

e.

payment of mandatory restitution in an
amount to be determined by the Court, as
agreed to in paragraph 9 below.

The parties agree that Count 3 of the Second
Superseding Indictment carries statutory penalties of:
a.

a maximum of 3 years of imprisonment;

b.

a maximum supervised release term of 1 year;

c.

a fine of up to $250,000;

d.

a mandatory special assessment of $100; and

e.

payment of mandatory restitution in an
amount to be determined by the Court, as
agreed to in paragraph 9 below.

5. Revocation of Supervised Release. The
Defendant understands that, if he were to violate any
condition of supervised release, he could be sentenced
to an additional term of imprisonment up to the length
of the original supervised release term, subject to the
statutory maximums set forth in 18 U.S.C. § 3583.
6. Guideline Calculations. The parties
acknowledge that the Defendant will be sentenced in
accordance with 18 U.S.C. § 3551, et seq. Nothing in
this plea agreement should be construed to limit the

68a
parties from presenting any and all relevant evidence
to the Court at sentencing. The parties also
acknowledge that the Court will consider the United
States Sentencing Guidelines in determining the
appropriate sentence and stipulate to the following
guideline calculations:
a.

Base Offense Level. The parties agree that
the base offense level for the Klein
conspiracy charged in Count 1 and for filing
the false tax return as charged in Count 3 in
this case is 24 based upon a tax loss that
exceeds $3,500,000, but is less than or equal
to $9,500,000 (U.S.S.G. §§ 2T1.1(a)(1),
2T1.1(c)(1)(A) and; 2T4.1(J)).

b.

Specific Offense Characteristics. The parties
agree that the offense involved sophisticated
means, resulting in a 2-level increase
pursuant to U.S.S.G. § 2T1.1(b)(2).

c.

Chapter 3 Adjustments. The parties agree
that the defendant was an organizer of a
criminal activity that was “otherwise
extensive” within the meaning of U.S.S.G.
§3B1.1(a), resulting in a 4-level increase.

d.

Acceptance
of
Responsibility.
The
government agrees to recommend that the
Defendant receive a 2-level reduction for
acceptance of responsibility and to make any
appropriate motions with the Court.
However, the Defendant understands and
agrees that this recommendation is
conditioned upon the following: (i) the
Defendant testifies truthfully during the
change of plea and sentencing hearings, (ii)

69a
the Defendant provides complete and
truthful information to the Probation Office
in the pre-sentence investigation, and (iii)
the Defendant commits no further acts
inconsistent
with
acceptance
of
responsibility. (U.S.S.G. §3E1.1).
The
government will decline to move the Court to
award the third point for acceptance of
responsibility because trial is only one week
away, and the government has expended
considerable resources preparing for the
trial.
The parties agree that other than as
provided for herein, no other Chapter 3
adjustments apply.
Based upon the foregoing, the parties
stipulate that the Defendant’s offense level
in this case is 28.
c.

Criminal History Category. Based on
information available at this time, the
parties believe that the Defendant’s criminal
history category is II. This does not
constitute a stipulation, but a belief based on
an assessment of the information currently
known. The Defendant’s actual criminal
history and related status will be determined
by the Court based on the information
presented in the Presentence Report and by
the parties at the time of sentencing.

d.

Guideline Range. If the offense level is 28,
and the criminal history category is II, the
Sentencing Guidelines range is 87-108
months of imprisonment. Thus, given the

70a
statutory cap, the guidelines range of
imprisonment in this case is 87-96 months.
g.

Fine Range. If the adjusted offense level is
28, the fine range is $25,000 to $250,000.
(U.S.S.G. § 5E1.2(c)(3)).

h. Supervised
Release.
The
Sentencing
Guidelines suggest a term of supervised
release of one to three years (U.S.S.G. §§
5D1.1, 5D1.2(a)(2)).
i.

Sentencing Recommendation and Departures. The Defendant reserves the right to
make a motion for departures from the
applicable Guidelines range and is free to
argue for any sentence. The government
agrees to recommend a sentence at the low
end of the guidelines range, in this case 87
months of imprisonment.

7. Discretion of the Court. The foregoing
stipulations are binding on the parties, but do not bind
the Court. The parties understand that the
Sentencing Guidelines are advisory and their
application is a matter that falls solely within the
Court's discretion. The Court may make its own
determination regarding the applicable Guidelines
factors and the applicable criminal history category.
The Court may also depart from the applicable
Guidelines range. If the Court determines that the
applicable guideline calculations or Defendant's
criminal history category are different from that
stated above, the parties may not withdraw from this
agreement, and Defendant will be sentenced pursuant
to the Court's determinations.

71a
8. Special Assessment. The Guidelines require
payment of a special assessment in the amount of
$100.00 for each felony count of which Defendant is
convicted. U.S.S.G. § 5E1.3. Defendant agrees to pay
the special assessment (amounting in this case to
$200) prior to sentencing.
9. Restitution. The Defendant agrees to
cooperate fully with the IRS to determine the
Defendant’s correct tax liabilities. The Defendant
agrees that the IRS may use the tax loss contemplated
by this Plea Agreement to assess income tax liability
to him. The defendant further agrees, pursuant to
this plea agreement, that the Court should order him
to pay restitution to the IRS.
10. Complete Agreement. This, along with any
agreement signed by the parties before entry of plea,
is the entire agreement and understanding between
the United States and Defendant.
Date: June 4, 2018
GREGORY G. BROOKER
United States Attorney
/s/ David J. MacLaughlin

BY: DAVID J. MACLAUGHLIN
BENJAMIN F. LANGNER

Assistant U.S. Attorneys

Date: June 4, 2018

/s/ Scott Flynn
SCOTT PHILLIP FLYNN
Defendant

Date: June 4, 2018

/s/ Paul Engh & Earl Gray

PAUL C. ENGH
EARL P. GRAY
Counsel for Defendant

72a
Appendix G
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff,
v.
SCOTT PHILLIP FLYNN,
Defendant.
File No. 16-CR-347 (ADM/KMM)
Minneapolis, Minnesota
January 23, 2019
2:00 PM
BEFORE THE HONORABLE ANN D. MONTGOMERY
UNITED STATES DISTRICT COURT JUDGE
(SENTENCING)
APPEARANCES
For the Plaintiff: U.S. ATTORNEY'S OFFICE
DAVID MACLAUGHLIN, AUSA
BENJAMIN LANGNER, AUSA
300 S. 4th St., #600
Minneapolis, MN 55415
For the Defendant: FOX ROTHSCHILD LLP
PATRICK EGAN, ESQ.
2000 Market St., 20th Floor
Philadelphia, PA 19103

73a

*

[46]

*

*

*

*

Q [Mr. MacLaughlin]. Do we know what
happened to the funds after they got there?
A [Ms. Korpela]. Some of the funds, yes.
Q. Okay. What happened to some of the funds?
A. Some of the funds went directly from the
nominee accounts to an attorney in Costa Rica who
then transferred it up to Mr. Flynn. Some of the
money went directly from the nominee accounts to Mr.
Flynn’s company accounts here. And some of the
money, I believe, went to Mr. Miotti, who then
transferred the money out of his own account.
Q. Have you compared the amount of money that
went over there to the amount of money that came out
of Australia either to Costa Rica or to the United
States?
A. Yes.
Q. And is there still money in Australia that Mr.
Flynn transferred over there?
A. Yes.
Q. Do you have an idea of how much?
A. Out of that 15 million I want to say there’s
maybe 6 million left.

74a

Q. Left over there?
A. I believe. I’m not certain on those numbers.
it?

Q. Okay. But are they close? Are you ballparking
A. Yes.

Q. Okay. Now, topic of cross-examination that I
want to get to before cross-examination: Normally
when stock is sold -- the 15 million is from the sale of
stock, right?
A. Yes.
Q. Normally isn’t that a capital gain scenario?
A. Or loss, yes.
Q. And aren’t capital gains taxed at a lower rate
than ordinary income?
A. Yes.
Q. Your analysis here in Government Exhibit 4
that we’re going to talk about in a second deems the
$15 million to be ordinary income, doesn’t it?
A. It does.
Q. Why?

75a
A. Because in the plea agreement that 15 million
was a proxy number that we used kind of as a
compromise between the largest tax loss that it could
be and what Mr. Flynn probably wanted. So the 15
million was a compromise number that stood instead
of the actual income.
Q. A proxy for what?
A. For all of Mr. Flynn’s income.
*

*

*

*

*

[58]
Q [Mr. Egan]. And what your number is based on
is all of the sales that those Australian nominees
made in these U.S. brokerage accounts?
A [Ms. Korpela]. Not all of the sales, just the
proceeds that were sent to Australia.
Q. So, in other words, there were proceeds that
didn’t go to Australia?
A. There may be some proceeds still sitting in the
accounts, and there is still stock sitting in the
accounts.
Q. And the theory of the case, as I understand it,
is that these proceeds went to Australia, right?
A. Correct.

76a
Q. And then those proceeds went into the various
-- were in the accounts of the various nominees,
correct?
A. Correct.
Q. And those nominees then distributed those
proceeds to a number of different places, correct?
A. Correct.
Q. And you are attributing all of that money to
Mr. Flynn, correct?
A. Yes.
Q. Okay. Thank you.
So in order for that to be an accurate attribution,
Mr. Flynn would have to essentially be the beneficial
owner of all of those shares, correct?
A. No. We’re not contending that this is a
completely accurate number. As I already testified to,
it’s a proxy number for the income that Mr. Flynn did
receive.

77a
Appendix H
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff,
v.
SCOTT PHILLIP FLYNN,
Defendant.
File No. 16-CR-347 (ADM/KMM)
Minneapolis, Minnesota
January 23, 2019
2:00 PM
BEFORE THE HONORABLE ANN D. MONTGOMERY
UNITED STATES DISTRICT COURT JUDGE
(SENTENCING – CONTINUED)
APPEARANCES
For the Plaintiff: U.S. ATTORNEY'S OFFICE
DAVID MACLAUGHLIN, AUSA
BENJAMIN LANGNER, AUSA
300 S. 4th St., #600
Minneapolis, MN 55415
For the Defendant: FOX ROTHSCHILD LLP
PATRICK EGAN, ESQ.
2000 Market St., 20th Floor
Philadelphia, PA 19103

78a

[125]

*

*

*

*

*

THE COURT: All right. Thank you.
The argument is of record, of course, with regard
to the 28 percent. In reviewing the guideline analysis
and the materials of yesterday, I think a 28 percent
benchmark is applicable in the context of assessing a
guideline analysis and loss amount. It does not apply,
to my understanding, in restitution, which is assessed
to make victims whole, and no discounting of that by
a particular percentage seems to make rational sense
to me.
I have spent some time thinking about the
testimony of Agent Korpela and the defense witness,
Mr. Fairchild, and I think under the circumstances in
evaluating the testimony there clearly are potential
multiple ways of methodology and computation of the
appropriate restitution amount, which could, as the
Government’s exhibits indicate, amount to and could
result in a number of different restitution figures.
I think the methodology the government used
that results in a figure of $5,392,442.87 Mr.
MacLaughlin has spoke of it as conservative, and
whether it’s conservative isn’t as important to me as
to whether or not it’s a fair amount. And I think the
government certainly could make an argument for a
$15 million figure. And I think under the
circumstances the $5,392,442.87 figure is fair and an
appropriate one for restitution in this case and it will
be the restitution amount. As we know, that amount

79a
is determined not beyond a reasonable doubt but by a
preponderance of the evidence standard. And I won’t
pretend that I think it is mathematically precise in
any way to reflect the amount that should actually be
paid back, but it certainly satisfies in my mind the
preponderance of the evidence standard and, more
importantly, I think it is fair under the circumstances.
*

*

*

*

*

[144]
[THE COURT]
…
I do also impose mandatory restitution in the
prior announced amount of $5,392,442.87, which is
due immediately to the Internal Revenue Service at
an address that will be listed in the Judgment and
Commitment. Payments are to be made payable to the
Clerk of the United States District Court for
disbursement to the victim. The interest requirement
is waived in accordance with Title 18, United States
Code Section 3612(f)(3).

